OIG Investigative Reports, Three More Department of Education Employees Plead Guilty in $1 Million Fraud Scheme
Skip to main contentAbout UsContact UsFAQs Language Assistance Englishespañol中文: 繁體版Việt-ngữ한국어TagalogРусский
U.S. Department of Education
Search for:
Toggle navigation
U.S. Department of Education
Student Loans
Grants
Laws
Data
About ED
OFFICES
Home
Reports & Resources
Programs/Initiatives
News
Office Contacts
Investigative Reports
FOR IMMEDIATE RELEASE:
Thursday October 19, 2000
http://www.usdoj.gov
CONTACT PERSON:
Channing Phillips
(202) 514-6933
Three More Department of Education Employees Plead Guilty in $1 Million Fraud Scheme
Washington, D.C. - United States Attorney Wilma A. Lewis, Inspector General for the Department of Education Lorraine Lewis, and Jimmy C. Carter, Assistant Director in Charge of the FBI's Washington Field Office announced today that three additional individuals have pled guilty in the United States District Court for the District of Columbia before the Honorable Emmet G. Sullivan in a wide-ranging scheme of theft from the Department of Education. Susanne Morgan, 53, of Waldorf, MD, pled guilty today to one count of Receiving Stolen Government Property. On October 3, 2000, Lewis Morgan, 50, of Mechanicsville, MD (no relation to Susanne Morgan) pled guilty to one count of Aiding and Abetting Theft of Government Property. Marianne Buckler, 44, of Hughsville, MD, pled guilty on September 26, 2000, to one count of Receiving Stolen Government Property.
These guilty pleas arose from the defendants' respective participation in a scheme through which the United States Department of Education was eventually defrauded of more than $1,000,000.  Each of these defendants had been a long-time employee of the Department of Education and, as a condition of his or her plea, resigned from the Department of Education and is permanently barred from any further employment with the federal government. On account of their guilty pleas, each of these defendants is facing a maximum sentence often years' imprisonment and a fine of not more than $250,000 when he or she is sentenced by Judge Sullivan.
The investigation into the massive scheme is continuing. These three defendants are cooperating with the government's investigation. To date, six individuals have pled guilty to criminal charges in relation to this scheme. Currently four Department of Education employees remain indefinitely suspended without pay pending the outcome of the criminal investigation. The two Bell Atlantic technicians and a technician from another telecommunications company have been fired as a result of the investigation.
According to information provided to the court during the three recent plea hearings, Susanne Morgan was employed by the Department of Education in the Office of Student Financial Assistance and is a sister of a Telecommunications Specialist in the Office of Chief Information Officer at the Department of Education. Marianne Buckler was also employed in the Department of Education's Office of Student Financial Assistance and is a sister of the Telecommunications Specialist. Lewis Morgan was a clerk in the Department of Education.
The Telecommunications Specialist was the contract officer on a large telecommunications contract the Department of Education had with Bell Atlantic Federal Systems. At some point in time in the 1990s, the Telecommunications Specialist began ordering materials on the Bell Atlantic contract that were unrelated to the performance of the Bell Atlantic contract. These orders were placed through a Bell Atlantic technician, Robert Sweeney, who was assigned full-time to the Department of Education to install telephone systems. Mr. Sweeney has previously pled guilty to charges of conspiracy and theft of government property for his role in this scheme. Initially, these orders were limited to telephones and/or answering machines for personal use. Sweeney would order the items as the Telecommunications Specialist requested, pick up the items from the Bell Atlantic warehouse, and deliver them to the Telecommunications Specialist. The Telecommunications Specialist would in turn distribute these items to co-workers and/or family members for their personal use. These items were charged to and paid for by the Department of Education.
In December 9, 1999, consensual searches of Susanne Morgan's and her son, Raymond Morgan, Jr.'s homes, agents of the Federal Bureau of Investigation and the Department of Education's Office of Inspector General located numerous items that the Telecommunications Specialist had ordered on the Bell Atlantic contract and which had been paid for by the Department of Education, including numerous telephones, two digital cameras, a computer, and several printers. The items located at Raymond Morgan, Jr.'s home had originally been given to Susanne Morgan by the Telecommunications Specialist. Susanne Morgan subsequently gave these items to her son. The Department of Education had paid over $17,000 for these items. Raymond Morgan, Jr. has previously pled guilty to one count of Receiving Stolen Government Property in relation to the items recovered from his home.
In addition to receiving expensive electronic equipment, the Telecommunications Specialist gave Mrs. Morgan Department of Education telephone calling card numbers that Mrs. Morgan and her sons used to make numerous personal long-distance telephone calls that were paid for by the Department of Education.
The government also informed the court that on approximately ten occasions in the last three years at the request of her sister, the Telecommunications Specialist, Mrs. Morgan personally transported in her automobile numerous item's that the Telecommunications Specialist had ordered on the Bell Atlantic contract and had been paid for by the Department of Education but were eventually distributed to friends and family members for their personal use.
The government further informed the court that Marianne Buckler received numerous expensive items from her sister the Telecommunications Specialist that had been ordered on the Bell Atlantic contract. A search of Mrs. Buckler's home on December 9, 1999, led to the recovery of three computers, two digital cameras, two printers, a scanner, a Motorola Talkabout, and several telephones, for which the Department of Education had paid $22,900. Mrs. Buckler had not reimbursed the Department of Education for any of these items.
Finally, the court was informed that Lewis Morgan had on numerous occasions assisted Robert Sweeney in delivering computers, telephones, a 61-inch television set, and other items to the Telecommunication Specialist's family members in Maryland. These deliveries all took place during normal working hours when Lewis Morgan was being paid by the Department of Education. Lewis Morgan also helped Mr. Sweeney run personal errands for the Telecommunications Specialist, such as midday runs to Baltimore to purchase crabcakes for the Telecommunications Specialist.
In announcing these pleas, U.S. Attorney Lewis, Inspector General Lewis, and Assistant Director Carter commended members of the Department of Education's Office of Inspector General and the Federal Bureau of Investigation's Government Fraud Squad. In particular, they praised the outstanding investigative efforts of OIG Special Agent Brian Hickey and FBI Special Agent Thomas Chadwick. In addition, they commended Assistant U.S. Attorney Barbara A. Grewe of the Public Corruption/Government Fraud Section, who is handling the investigation
Top
Printable view
Share this page
Last Modified: 02/28/2005
How Do I Find...
Student loans, forgiveness
College accreditation
No Child Left Behind
FERPA
2015 Budget Proposal
FAFSA
More >
Information About...
Transforming Teaching
Family and Community Engagement
Early Learning
K-12 Reforms
More >
Connect
Facebook
Twitter
YouTube
Email
RSS
Google+
More >
MISUSED
FOIA
OIG Fraud Hotline
Our mission is to promote student achievement and preparation for global competitiveness by fostering educational excellence and ensuring equal access.
Student Loans
Repaying Loans
Defaulted Loans
Loan Forgiveness
Loan Servicers
Grants & Programs
Apply for Pell Grants
Grants Forecast
Open Grant Competitions
Find Grant Programs by Eligibility
Laws & Guidance
No Child Left Behind
IDEA
Civil Rights
Significant Guidance
Data & Research
Education Statistics
Integrated Postsecondary Education Data System
Nation's Report Card
What Works Clearinghouse
About Us
Contact Us
Jobs
News
FAQs
Budget, Performance
Notices FOIAPrivacySecurityInformation qualityInspector GeneralWhitehouse.govUSA.govBenefits.govRegulations.gov